                                       TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



January 17, 2013

Robert Irvin, WT 9C-K

FINAL REPORT – EVALUATION 2012-14507 – REVIEW OF TVA'S LOAD FORECAST
RISK


As part of a series of reviews to evaluate the Tennessee Valley Authority’s (TVA) actions
to address key risks, we evaluated TVA’s load forecast risk. Load forecast was identified
as a top five strategic business unit risk in the Long Range Planning Process Risk
Category in fiscal year (FY) 2011. The results of our review are shown in the table below.

                                         Risk: Load Forecast Risk
    Risk Information                        Mitigation                              Our Assessment
 Definition: Poor forecast              Completion of                  While EL&RF has taken and is taking
 would contribute to added               Demand & Energy                actions to mitigate risk associated
 uncertainty in budgeting,               Model Enhancements.            with load forecasting, we found
 capacity, and generation                                               opportunities exist to improve the
 planning.                              Contracted with the            mitigation strategy documentation.
                                         University of                  The documented mitigation strategy
 Probability of Occurrence:              Tennessee Knoxville,           does not reflect planned actions to
 Even Odds.                              Center for Business &          improve data integrity or the regular
                                         Economic Research              updates to the forecast models and
 Consequence: Major.                     (UTK Center) to                economic drivers. Additionally, we
                                         provide regional               found mitigations are generally
 Risk Owner: Senior                      economic forecasting.          designed appropriately. However, we
 Manager, Economic Load                 The load forecasting           noted EL&RF does not have any
 & Revenue Forecast                      staff is regularly             compensating controls to prevent
 (EL&RF).                                implementing updated           inadvertent modifications to data until
                                         weather constants and          the Demand & Data Consolidation
                                         normals, which should          Process is completed.
                                         reduce the load
                                         forecast variance
                                         related to weather.

 Recommendations:
 We recommend the Senior Vice President, Strategy, Financial Planning & Business
 Development, (1) enhance the load forecast documented mitigation strategy to include the
 mitigations planned or already occurring but not listed as part of the strategy and (2) implement
 measures to reduce the likelihood of inadvertent modifications to data until the Demand & Data
 Consolidation Process is completed.

TVA management agreed with our findings and recommendations and has taken actions
to address them. See the Appendix for TVA’s complete response.
      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                       TVA RESTRICTED INFORMATION
Robert Irvin
Page 2
January 17, 2013



BACKGROUND

Load forecast has been identified in the TVA Enterprise Risk Management (ERM)
program as a risk since 2010. According to TVA, ERM is a systematic process to facilitate
business unit identification of risk, consistency in their analysis and communication
throughout TVA, such that TVA can determine whether or not the risks should be avoided,
accepted, or mitigated with a risk management plan. TVA also states that ERM is an
ongoing and evolving process to protect the value of the enterprise and realize
opportunities for stakeholders by promoting the efficient and effective management of risk.

According to TVA, load forecasting is an estimate or a prediction of how much electricity
will be needed by the Valley’s residences, companies, and other institutions in the future.
TVA’s EL&RF group uses inputs such as weather, historical load data, appliance
saturation and efficiencies, current rates and products, as well as sources such as
Moody’s Outlook and The University of Tennessee’s Regional Outlook1 to generate their
load forecasts.

In FY 2011, load forecast was identified as a top five strategic business unit risk in the
Long Range Planning Process Risk Category. TVA states that a poor forecast would
contribute to added uncertainty in budgeting, capacity, and generation planning. Since
2011, TVA’s risk map2 has shown the probability of this risk occurring at “even odds” and
the consequence as “major,” which results in a risk rating of “medium.”

The load forecast risk rating, probability, and consequence information has not changed
since fourth quarter 2010. Between the second and fourth quarters of 2010, the
probability of occurrence moved from “very likely” to “even odds.” Since fourth quarter
2010, the rating has remained “medium,” probability of occurrence at “even odds,” and
consequence as “major.” In fourth quarter 2012, the load forecast risk was combined with
the revenue and financial forecasting risks into one. The combined risk rating has a
probability of occurrence of “even odds,” and consequence as “major.”

While EL&RF is taking steps to mitigate the risk, according to the Senior Manager,
EL&RF, due to the nature of forecasting there will always be a level of uncontrollable risk
and uncertainty of outcome. According to TVA, a load forecast is uncertain because
(1) there is uncertainty related to future values of key variables that drive the forecast, and
(2) interactions between key variables and their impacts on future electricity consumption
are uncertain and change over time. While there is uncertainty in forecasting, TVA tracks
forecast accuracy to ensure the usefulness of the forecasts and develops a range of
forecasts to correspond to different load scenarios. Currently, EL&RF has a load forecast
variance target of 1.3 percent or lower. Over the last 12 years, the load forecast variance
was greater than the 1.3 percent threshold four times.




1
    TVA has contracted with the University of Tennessee to provide a regional economic forecasting report.
2
    A risk map is a two-dimensional graphical tool used to illustrate point estimates of risks. Each mention of
    the risk map throughout this report refers to the draft version.
                                    TVA RESTRICTED INFORMATION
Robert Irvin
Page 3
January 17, 2013



To estimate load forecasts, TVA uses both econometric3 and end-use models.4 The long-
term forecast is designed to estimate TVA region growth in demand for electricity in terms
of both electricity sales to the end user and peak demands those end users place on the
TVA system 20 to 25 years into the future. The short-term forecast is the monthly system
peaks and energy used in the monthly generation plan and revenue forecast for up to
36 months.

OBJECTIVE, SCOPE, AND METHODOLOGY

As part of a series of reviews to evaluate the TVA’s actions to address key risks, we
evaluated TVA’s load forecast risk. The objective of this review was to evaluate TVA’s
load forecast risk to identify opportunities to improve mitigation strategies and assess
whether mitigation strategies are designed appropriately to address the identified risk.
The scope of this review included the load forecast risk and the mitigation plans for this
risk. We considered ongoing activities and efforts to mitigate the load forecast risk from
2010 through the end of FY 2012.

To achieve our objectives, we:

    Identified and reviewed applicable policies and procedures related to load forecasting
     to gain an understanding of the forecasting process including TVA’s Integrated
     Resource Plan and TVA’s Long-Term Load Forecasting Process.
    Reviewed historical load forecast risk summaries to determine if the risk rating has
     changed since the risk was identified.
 Interviewed applicable TVA personnel including the load forecast risk owner, EL&RF
    personnel, and load forecast users to determine what steps are being taken to mitigate
    TVA’s load forecast risk and the results of the mitigations.
    Reviewed monthly variance reports from September 2011 through August 2012 to
     verify that weather constants and normals are being updated.

This review was conducted in accordance with the Quality Standards for Inspection and
Evaluation.

FINDINGS

While EL&RF is taking actions to mitigate risk associated with load forecasting, we found
opportunities exist to improve the mitigation strategy documentation. The documented
mitigation strategy does not reflect planned actions to improve data integrity or the regular
updates to the forecast models and economic drivers. Additionally, we found mitigations
are generally designed appropriately. However, we noted EL&RF does not have any
compensating controls to prevent inadvertent modifications to data until the
Demand & Data Consolidation Process is completed.

3
    Econometric models link electricity sales to key economic factors in the market such as the price of
    electricity, the price of competing energy source options, and the growth in overall economic activity.
4
    End-use models are used to measure how much energy will be consumed by given end uses such as
    residential air conditioners, office lighting, and industrial motors.
                                    TVA RESTRICTED INFORMATION
Robert Irvin
Page 4
January 17, 2013



EL&RF has taken and is taking actions to mitigate the load forecast risk. Since 2011, the
risk management initiative to reduce the probability of occurrence has been “implementing
updated weather constants and normals5 that should reduce the load forecast variance
related to weather.” EL&RF’s actions to address the risk included Demand & Energy
Forecast Model Enhancements and a three-phase Demand & Energy Data Consolidation
Process. The Demand & Energy Forecast enhancements were completed in 2011 to
develop a better hourly load model. The Demand & Energy Data Consolidation Process is
ongoing and funded through FY 2013 but is not expected to be completed until
FY 2014. According to the Senior Manager, EL&RF,6 another action TVA took to reduce
the consequence of the risk was to contract with the UTK Center to provide regional
economic forecasting. TVA incorporated this regional economic outlook for the first time
in 2011 and plans to continue using the UTK Center in the future.

In addition, EL&RF is updating the weather constants and normals as stated in their
mitigation strategy. We reviewed monthly variance reports for the twelve-months ending
August 2012 to verify the weather constants and normals were updated. We found
weather constants and normals for that time period were updated monthly. We also found
weather normals were recalculated to reflect new available weather data in 2011.7

While EL&RF is taking steps to mitigate risk associated with load forecasting, we found
opportunities exist to improve the mitigation strategy documentation. In addition to
updating weather constants and normals, EL&RF is mitigating the load forecast risk with
actions such as updating forecast models and economic drivers. According to the Senior
Manager, EL&RF, models and economic information are updated on a regular basis to
improve forecasts. These actions are currently performed as part of the load forecast
process to improve the accuracy of future forecasts; however, these actions are not
documented as part of the mitigation strategy.

Another key aspect of load forecasting is the data. According to EL&RF, reliable and well-
controlled data is essential for all aspects of the economic load and revenue forecasting
life cycle. Data is currently pulled from multiple sources (such as e-mails, downloaded
from shared drives, etc.,) and then this data, as well as data created by calculations, is
stored in spreadsheets and databases but not all together in a structured or controlled
data base. According to EL&RF, the Demand & Data Consolidation Process will address
this issue and should reduce errors, make information more reliable and lessen
dependence on any single person. The Demand & Data Consolidation Process is
currently not included as part of the documented mitigation strategy.

Although we found mitigations were generally designed appropriately to cover load
forecast risks, one gap was identified. Currently EL&RF does not have any compensating
controls to prevent inadvertent modifications to databases until the Demand & Data
Consolidation Process is completed in FY 2014. According to the Senior Manager,


5
    Weather normalized constants are values used to estimate the impact of non-normal weather on measured
    loads. Weather normalization removes the impacts of abnormal weather from historical energy data.
6
    The Senior Manager, EL&RF, serves as the load forecast risk owner.
7
    EL&RF recalculates weather normals every 5 years to reflect new available weather data. Peak constants
    are updated annually, and energy constants are updated monthly.
                                  TVA RESTRICTED INFORMATION
Robert Irvin
Pag
  ge 5
Jan
  nuary 17, 20
             013



EL&
  &RF, load foorecast models and spre eadsheets a re not proteccted. This p presents
  portunity for inadvertent data modific
opp                                    cations that could resultt in inaccuratte forecasts.

RE
 ECOMMEND
        DATIONS

We
 e recommend the Seniorr Vice Presid
                                   dent, Strateg
                                               gy, Financial Planning & Business
Development:

   Enhance th
             he load forec
                         cast docume ented mitigattion strategyy to include tthe mitigations
    planned or already occ
                         curring but no
                                      ot listed as p
                                                   part of the sttrategy.
   Implement measures to
                        o reduce thee likelihood o
                                                 of inadverten            ons to data until
                                                             nt modificatio
    the Demand & Data Coonsolidation Process is ccompleted.

TVA A Managem  ment’s Comments – TV      VA managem  ment agreed with the find     dings and
rec
  commendatio   ons in the reeport. In response to ou r recommen    ndations, the e Senior Vice
                                                                                              e
Pre
  esident, Straategy, Financ  cial Planning
                                          g & Businesss Development, has (1) updated the      e risk
mittigation sectiions of the lo
                              oad forecastt risk summaary to include e activities rrelated to
upddating inform
               mation and models
                             m        on a regular basiis and (2) lim
                                                                    mited accesss to current
ecoonomic, loadd, and revenue forecasting staff. Se  ee the Appen   ndix for TVA A’s complete
res
  sponse.

Auditor’s Response – The Office of the Inspectorr General co
                                                           oncurs with tthe complete
                                                                                   ed
acttions.

                                -        -       -       -       -

Youur written co
               omments, wh hich address
                                      sed your acttions taken, have been included in th     he
rep
  port. No further action is
                           s needed at this
                                       t    time. In
                                                   nformation coontained in tthis report m
                                                                                         may
be subject to public disclos
                           sure. Please
                                      e advise us o of any sensiitive informa
                                                                            ation in this rreport
tha
  at you recommmend be withheld.

If you
   y have any  y questions oro wish to discuss our o bservations,, please con
                                                                            ntact Kristin S
                                                                                          S.
Lea ach, Auditor, at (423) 78
                            85-4818 or Greg
                                       G     Stinson
                                                   n, Director, E
                                                                Evaluations, at (865) 633 3-
736 67. We appreciate the courtesy
                            c        andd cooperatio
                                                   on received ffrom your staaff during the
                                                                                          e
evaaluation.



Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

KSL:FAJ
cc: Peyton T. Hairston,
              H         Jr., WT 7B-K             Emily J. Reynoldss, OCP 1L-N
                                                                            NST
    Joseph J. Hoagland, WT
                         W 7C-K                  John M. Thomas III, MR 6D-CC
    William D. Johnson, WT
                         W 7B-K                  Roberrt B. Wells, W
                                                                   WT 9B-K
    Robert G. Millard, MR 3K-C                   Andre
                                                     ea L. William
                                                                 ms, WT 9B-KK
    Richard W.
            W Moore, ET  T 4C-K                  OIG F
                                                     File No. 2012 2-14507
                               TVA REST
                                      TRICTED INF
                                                FORMATION
                             APPENDIX
                             Page 1 of 1




TVA RESTRICTED INFORMATION
